TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Detection Has Improved; However,
                       Identity Theft Continues to Result in
                         Billions of Dollars in Potentially
                              Fraudulent Tax Refunds



                                      September 20, 2013

                              Reference Number: 2013-40-122




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 2 = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


DETECTION HAS IMPROVED;                              In addition, TIGTA expanded its Tax Year 2011
HOWEVER, IDENTITY THEFT                              analysis to include tax returns for which the
CONTINUES TO RESULT IN BILLIONS                      primary Taxpayer Identification Number on the
OF DOLLARS IN POTENTIALLY                            tax return is an Individual Taxpayer Identification
                                                     Number (ITIN). TIGTA identified more than
FRAUDULENT TAX REFUNDS
                                                     141,000 Tax Year 2011 tax returns filed with an
                                                     ITIN that have the same characteristics as
Highlights                                           IRS-confirmed identity theft tax returns involving
                                                     an ITIN. Potentially fraudulent tax refunds
                                                     issued for these undetected tax returns totaled
Final Report issued on                               approximately $385 million.
September 20, 2013.
                                                     Lastly, the IRS has still not taken actions to
Highlights of Reference Number: 2013-40-122          prevent multiple tax refunds from being
to the Internal Revenue Service Commissioner         deposited to the same bank account. This
for the Wage and Investment Division.                continues to provide identity thieves with an
                                                     easy method to obtain fraudulent tax refunds.
IMPACT ON TAXPAYERS
                                                     WHAT TIGTA RECOMMENDED
Identity theft continues to be a serious and
growing problem which has a significant impact       TIGTA recommended that the Commissioner,
on tax administration. Undetected tax refund         Wage and Investment Division: 1) deactivate
fraud results in significant unintended Federal      ITINs assigned to individuals prior to
outlays and erodes taxpayer confidence in the        January 1, 2013, who no longer have a tax filing
Federal tax system.                                  requirement in an effort to reduce tax filing fraud
                                                     and 2) continue to analyze the characteristics of
WHY TIGTA DID THE AUDIT                              identity theft tax returns, including using the
                                                     characteristics of questionable ITIN application
This review is a follow-up to a July 2012 TIGTA
                                                     data to expand identity theft filters.
audit report, There Are Billions of Dollars in
Undetected Tax Refund Fraud Resulting From           IRS management agreed with TIGTA’s
Identity Theft (Reference No. 2012-42-080).          recommendations. An implementation team is
The overall objective of this review was to          addressing the deactivation process for ITINs
determine whether the IRS has improved its           issued prior to 2013 and is developing an
programs and procedures to identify and prevent      enterprisewide process to accomplish that
fraudulent tax refunds resulting from identity       objective. In addition, during the 2012 and 2013
theft.                                               Filing Seasons, the Taxpayer Protection
                                                     Program identified opportunities for
WHAT TIGTA FOUND                                     improvement to the filter processes and
Our review found that expanded identity theft        implemented changes that improved their
detection efforts are helping identify fraudulent    performance and effectiveness. The IRS plans
tax returns. However, billions of dollars in         to continue to evaluate the feasibility and impact
potentially fraudulent refunds continue to be        of changes to the Dependent Database filters
paid. Our analysis of Tax Year 2011 tax returns      and ITIN Real-Time System.
identified approximately 1.1 million undetected
tax returns filed using a Social Security Number
that have the same characteristics of
IRS-confirmed identity theft tax returns.
Potentially fraudulent tax refunds issued total
approximately $3.6 billion, which is down by
$1.6 billion compared to the $5.2 billion TIGTA
reported for Tax Year 2010.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 20, 2013


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Detection Has Improved; However, Identity Theft
                             Continues to Result in Billions of Dollars in Potentially Fraudulent Tax
                             Refunds (Audit # 201240044)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has improved its programs and procedures to identify and prevent fraudulent tax refunds
 resulting from identity theft. This review is a follow-up to our July 2012 audit report, There Are
 Billions of Dollars in Undetected Tax Refund Fraud Resulting From Identity Theft.1 The review
 is included in our Fiscal Year 2013 Annual Audit Plan and addressed the major management
 challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me if you have questions or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).




 1
     Ref. No. 2012-42-080.
                                  Detection Has Improved; However, Identity Theft
                                     Continues to Result in Billions of Dollars in
                                        Potentially Fraudulent Tax Refunds




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Expanded Identity Theft Detection Efforts Are Helping to
          Identify Fraudulent Tax Returns; However, Billions of
          Dollars in Potentially Fraudulent Refunds Continue to Be Paid .................. Page 3
          **************************2***********************
          ***************************2******************* ........................ Page 5
          Individual Taxpayer Identification Numbers Are Sometimes
          Used to File Potentially Fraudulent Tax Returns .......................................... Page 9
                    Recommendation 1:........................................................ Page 11

          Continued Expansion of Identity Theft Filters Can
          Increase Detection of Fraudulent Tax Returns ............................................ Page 12
                    Recommendation 2:........................................................ Page 17

          Actions Still Have Not Been Taken to Prevent Multiple Tax
          Refunds From Being Deposited to the Same Bank Account ........................ Page 18

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 22
          Appendix II – Major Contributors to This Report ........................................ Page 25
          Appendix III – Report Distribution List ....................................................... Page 26
          Appendix IV – Outcome Measures............................................................... Page 27
          Appendix V – Glossary of Terms ................................................................. Page 29
          Appendix VI – Management’s Response to the Draft Report ...................... Page 31
            Detection Has Improved; However, Identity Theft
               Continues to Result in Billions of Dollars in
                  Potentially Fraudulent Tax Refunds




                      Abbreviations

e-file(d)      Electronically file(d)
IRS            Internal Revenue Service
ITIN           Individual Taxpayer Identification Number
PIN            Personal Identification Number
SSN            Social Security Number
TIGTA          Treasury Inspector General for Tax Administration
                            Detection Has Improved; However, Identity Theft
                               Continues to Result in Billions of Dollars in
                                  Potentially Fraudulent Tax Refunds




                                          Background

Identity theft continues to be a serious and growing problem which has a significant impact on
tax administration. Identity theft for the purpose of tax fraud occurs when an individual uses
another person’s name and Taxpayer Identification
Number1 (generally a Social Security Number                  The Federal Trade Commission
(SSN)) to file a fraudulent tax return to obtain a          has reported identity theft as the
fraudulent tax refund. Unscrupulous individuals are         number one consumer complaint
stealing identities at an alarming rate for this               since Calendar Year 2000.
purpose.
Many individuals who are victims of this type of identity theft may be unaware that their identity
has been used to file fraudulent tax returns. The individuals victimized are typically those who
are not required to file a tax return. Figure 1 provides a comparison of the total number of tax
returns the Internal Revenue Service (IRS) confirmed to involve identity theft for Processing
Years 2011 and 2012 as well as the fraudulent refunds prevented.
                      Figure 1: Identity Theft Tax Returns Confirmed
                     As Fraudulent in Processing Years 2011 and 2012

          Processing             Number of Confirmed                 Fraudulent Tax Refunds
             Year              Identity Theft Tax Returns          Prevented From Being Issued

              2011                      1,086,727                          $ 7,972,883,955

              2012                      1,841,144                          $ 12,108,211,555

       Source: The IRS’s Refund Fraud and Identity Theft Global Report for Calendar Year 2012.

The impact of identity theft on tax administration is significantly greater than the
amount detected and prevented by the IRS
While the number of fraudulent tax refunds the IRS detects and prevents is substantial, it does
not know the full scope of the fraud. A July 2012 Treasury Inspector General for Tax
Administration (TIGTA) report on identity theft found that undetected tax refund fraud results in
significant unintended Federal outlays.2 The issuance of fraudulent tax refunds erodes


1
 See Appendix V for a glossary of terms.
2
 TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From
Identity Theft (Jul. 2012).
                                                                                                     Page 1
                         Detection Has Improved; However, Identity Theft
                            Continues to Result in Billions of Dollars in
                               Potentially Fraudulent Tax Refunds



confidence in the Federal tax system and increases the burden on those taxpayers who comply
with the tax laws.
In the 2012 report, TIGTA concluded that, based on an analysis of Tax Year 2010 tax returns
processed during the 2011 Filing Season, tax fraud by individuals filing fictitious tax returns
with false income and withholding is significantly greater than what the IRS detects and
prevents. Using characteristics of identity theft confirmed by the IRS, we identified
approximately 1.5 million undetected tax returns with potentially fraudulent tax refunds totaling
in excess of $5.2 billion.
This review was performed as a follow-up review to the July 2012 TIGTA audit on identity theft,
which was performed at the request of Senator Bill Nelson, Chairman of the Senate Finance
Subcommittee on Fiscal Responsibility and Economic Growth. Senator Nelson also requested
this follow-up review. This review was performed at the IRS Wage and Investment Division
Accounts Management and Submission Processing functions in Atlanta, Georgia, during the
period September 2012 through June 2013. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 2
                          Detection Has Improved; However, Identity Theft
                             Continues to Result in Billions of Dollars in
                                Potentially Fraudulent Tax Refunds




                                 Results of Review

Expanded Identity Theft Detection Efforts Are Helping to Identify
Fraudulent Tax Returns; However, Billions of Dollars in Potentially
Fraudulent Refunds Continue to Be Paid
In response to our 2012 report, the IRS continues to expand its efforts to identify and prevent
fraudulent tax refunds from being issued as a result of identity theft. Our analysis of Tax
Year 2011 tax returns identified approximately 1.1 million undetected tax returns filed using
SSNs that have the same characteristics of IRS-confirmed identity theft tax returns. Potentially
fraudulent tax refunds issued total approximately $3.6 billion. Although these tax returns met
the characteristics of IRS-confirmed identity theft cases involving the use of an SSN, some
                                            potentially fraudulent tax returns we identified could
                                            also be the result of nonreporting of income and
      TIGTA analysis of Tax Year 2011       withholding by the employer or an individual using
    tax returns identified approximately
     1.1 million undetected tax returns     his or her own SSN to file a fraudulent tax return.
     with approximately $3.6 billion in        The amount of undetected potentially fraudulent
      potentially fraudulent refunds.
                                               refunds is down by $1.6 billion from the $5.2 billion
                                               we reported for Tax Year 2010. Despite the
increased efforts, billions of dollars in potentially fraudulent tax refunds continue to be issued
without detection.
In addition, we expanded our Tax Year 2011 analysis to include tax returns for which the
primary Taxpayer Identification Number on the return is an Individual Taxpayer Identification
Number (ITIN). We identified more than 141,000 Tax Year 2011 tax returns filed with an ITIN
that have the same characteristics as IRS-confirmed identity theft tax returns involving an ITIN.
Potentially fraudulent tax refunds issued for these undetected tax returns totaled approximately
$385 million.
**********************************2*****************************************
**********************************2*****************************************
************************************2***************************************
***********************************2*****************************************
***********************************2***************************************
*************************2**************************.




                                                                                              Page 3
                              Detection Has Improved; However, Identity Theft
                                 Continues to Result in Billions of Dollars in
                                    Potentially Fraudulent Tax Refunds



The IRS continues to expand its identity theft detection efforts
The IRS continues to improve its efforts for identity theft detection and prevention of fraudulent
tax refund issuance. These efforts include:
Expanding identity theft filters. The IRS first developed identity theft filters for use in
Processing Year 2012. The filters are used to identify potentially fraudulent tax returns and
prevent the issuance of refunds at the time tax returns are being processed. Tax returns identified
via the filters are held during processing until the IRS can verify the taxpayer’s identity. If the
individual’s identity cannot be confirmed, the IRS removes the tax return from processing. This
prevents the issuance of a fraudulent tax refund. In Processing Year 2012, there were 11 filters3
that identified approximately 325,000 tax returns and prevented the issuance of approximately
$2.2 billion in fraudulent refunds. In Processing Year 2013, the number of filters increased to
more than 80. As of May 30, 2013, the IRS identified 151,010 tax returns and prevented the
issuance of approximately $840 million in fraudulent tax refunds. This represents a 90 percent
increase over the number that the IRS identified for the same period in Processing Year 2012.4
Expanding account locks. The IRS continues to expand the number of tax accounts that it locks
by placing an identity theft indicator on the individuals’ tax accounts. Between January 2011
and May 2013, the IRS has locked approximately 10 million taxpayer accounts. Electronically
filed (e-filed) tax returns using the SSN of a locked account will be rejected (the IRS will not
accept the tax return for processing). As of May 31, 2013, the IRS has rejected 152,301 e-filed
tax returns. Paper-filed tax returns will be processed; however, the tax returns will not post to
the Master File due to the account lock, and a refund will not be issued. The IRS has stopped
6,285 paper-filed tax returns and prevented the issuance of approximately $5.6 million5 in
fraudulent tax refunds since the inception of the lock.
Developing a process to cluster tax returns with the same address and/or direct deposit
account numbers. We previously reported that a characteristic of some of the potentially
fraudulent tax returns we identified was the use of the same address and/or the same direct
deposit account. In response, the IRS developed a filtering tool that groups tax returns based on
address, zip code, and/or bank routing number. The groupings are then filtered through various
business rules to identify potentially fraudulent tax returns. Tax return clustering was not in
place when the Tax Year 2011 tax returns we analyzed were processed. The filtering tool
became operational in Processing Year 2013. As of May 30, 2013, the IRS indicated it had
identified 154,302 tax returns and prevented the issuance of approximately $470 million in tax
refunds.


3
  These were filters that were implemented prior to April 15, 2012.
4
  For the same period in Processing Year 2012, the IRS identified 79,273 tax returns and prevented the issuance of
approximately $562 million in fraudulent tax refunds.
5
  The IRS locked the majority of the 10 million accounts in December 2012; therefore, the increased benefit of
refunds prevented should be realized during Processing Year 2013.
                                                                                                            Page 4
                          Detection Has Improved; However, Identity Theft
                             Continues to Result in Billions of Dollars in
                                Potentially Fraudulent Tax Refunds



Developing leads from its Identity Theft Clearinghouse. The Identity Theft Clearinghouse
provides IRS Criminal Investigation with a central location to review and process identity theft
leads. The Clearinghouse performs research on each lead to develop it for the field offices and
ensure that an open investigation is not already underway. In addition, the Clearinghouse passes
relevant information to the appropriate function to attempt to incorporate newly identified fraud
characteristics into identity theft filters. As of May 31, 2013, the Clearinghouse has received
more than 3,400 identity theft leads that have resulted in the development of 478 investigations.
Expanding cooperation with local law enforcement. In April 2012, with the assistance of
various law enforcement agencies, the IRS developed a pilot program to allow the IRS to share
tax return information with law enforcement agencies with the consent of a taxpayer. This
partnership, which is known as the Law Enforcement Assistance Program, has since been
expanded to include all 50 States, the District of Columbia, Guam, the Northern Marianas
Islands, Puerto Rico, and the U.S. Virgin Islands. This initiative provides a way for taxpayers to
release their tax records to law enforcement agencies to attempt to find the identity thief through
the review of their tax return. The law enforcement agency requests that the victim of identity
theft fill out a waiver so that the IRS can release the tax return information filed by the identity
thief to the law enforcement agency. As of May 30, 2013, the IRS has processed 2,731 waivers
from 244 different law enforcement agencies.
While the above efforts have increased the IRS’s detection of fraudulent tax returns and
prevented the issuance of billions of dollars in fraudulent tax refunds, the IRS still does not have
timely access to third-party income and withholding information needed to make substantial
improvements in its detection efforts at the time tax returns are processed.

**************************************2*******************************************
*************************************2************************
Access to third-party income and withholding information is the key to enabling the IRS to
prevent the continued issuance of billions of dollars in fraudulent tax refunds. The following
shows one example of how the IRS can identify and prevent tax refund fraud when it has timely
access to third-party information.
In response to a recommendation made in our prior report, the IRS began matching Social
Security benefit income and withholding reported on tax returns to information reported to the
IRS by the Social Security Administration when tax returns are processed. Annually, in
December, the IRS receives Forms SSA-1099, Social Security Benefit Statement, from the Social
Security Administration. The Form SSA-1099 contains the beneficiary’s name, SSN, Social
Security benefits received, and Federal income tax withholding. For Processing
Year 2012, the IRS created a filter that uses the Form SSA-1099 information at the time tax
returns are processed to identify potentially fraudulent tax returns. The IRS decreased the


                                                                                              Page 5
                          Detection Has Improved; However, Identity Theft
                             Continues to Result in Billions of Dollars in
                                Potentially Fraudulent Tax Refunds



number of undetected tax returns based on fraudulent Social Security benefit income by
86 percent compared to the amount we previously reported.
Figure 2 provides a comparison of the number of undetected potentially fraudulent tax returns
involving Social Security income and withholding for Tax Year 2010 to the number we identified
for Tax Year 2011.
                   Figure 2: Comparison of Undetected Tax Returns
                   Claiming Social Security Benefits and Withholding
                             for Tax Years 2010 and 2011

                                               Undetected              Undetected
                                             Tax Year 2010           Tax Year 2011
                                           Tax Returns/Dollars     Tax Returns/Dollars

                Number of Tax Returns                  93,142                  12,993

                 Total Refund Amounts          $ 231,692,282             $ 62,856,556

               Source: TIGTA analysis of Tax Year 2010 and 2011 tax returns.

The IRS would have been able to identify even more of the tax returns with fraudulent claims for
Social Security benefits if it had been able to program this filter for use earlier in the 2012 Filing
Season. Programming put in place at the beginning of the 2013 Filing Season included the entire
Social Security record, which should enable the IRS to detect most tax returns reporting false
Social Security benefits and withholding during the 2013 Filing Season. As of May 30, 2013,
the IRS indicated it had identified 36,523 tax returns and prevented the issuance of
approximately $184 million in tax refunds due to the Social Security filters.
However, most of the third-party income and withholding information is not available until well
after tax return filing begins. Legislation would be needed for changes to the filing deadlines for
information returns. The deadline for filing most information returns with the IRS is March 31,
yet taxpayers can begin filing their tax returns as early as mid-January each year. For the
2013 Filing Season, the IRS received more than 88 million tax returns as of March 30, 2013.
In April 2011, the IRS Commissioner introduced the IRS’s vision of an initiative that would
allow matching of data on tax returns with data on third-party information returns at the time tax
returns are processed. It is envisioned that this would reduce the number of erroneous refunds
paid because it would allow the IRS to substantiate claims or entries made by the taxpayer on the
tax return as they are filed. The IRS found that 91 percent of individual taxpayers receive one of
three third-party information return types.6 As such, those information returns would likely be

6
 ****************************************2*************************************************;
*******************************************2*******************************.
                                                                                               Page 6
                             Detection Has Improved; However, Identity Theft
                                Continues to Result in Billions of Dollars in
                                   Potentially Fraudulent Tax Refunds



the highest priority for any changes to expedite transmittal and access for use in processing tax
returns.
To date, the IRS has conducted stakeholder sessions to discuss the impact, opportunities, and
constraints around earlier data matching. While most stakeholders agree this type of solution is
needed, they are concerned that earlier reporting will lead to more errors in the data. For
example, stakeholders raised concerns that several pieces of information on the income
documents, such as tax on life insurance premiums, third-party sick pay, and State disability
information, may not be available until after December 31. ********************2********
*************************************2***************************************
************************************2***************************************
**************************************2******************************.
************************************2**************************************
*************************************2*************************************
************************************2**************************************
*************************************2**************************************
**********************************2************************.

**********************************************2************************************************
****2********
Figure 3 provides a summary of our analysis, *******2*************************.
                         Figure 3: ***************************2******************************
                      ****************************************2*********************************

                       ******2********
                     *****2************           Tax Returns          Refunds Issued

                 ****2****                           802,672           $ 2,354,349,943
                 ***********2*************            12,993             $ 62,856,556
                 ****************2**********         204,522            $ 698,118,714
                 ********2***********                 66,811            $ 497,081,019
                                          Total    1,086,998           $ 3,612,406,232
                Source: TIGTA analysis of Tax Year 2011 tax returns.

Figure 4 identifies specific characteristics of the 1.1 million taxpayers whose SSNs were used on
these tax returns.




                                                                                            Page 7
                              Detection Has Improved; However, Identity Theft
                                 Continues to Result in Billions of Dollars in
                                    Potentially Fraudulent Tax Refunds



                      Figure 4: Characteristics of the Individuals Whose
                         SSNs Were Used on Undetected Tax Returns

                            Characteristic                         Tax Returns          Refunds Issued

          Children (under age 14)                                        1,451               $ 2,036,064
          Citizens of U.S. Possessions                                  22,090            $ 113,799,479
          Deceased                                                      19,102              $ 70,180,690
          Elderly (age 70 and over)                                     28,700            $ 136,320,008
          Income Level Does Not Require Tax Return
                                                                       753,004          $ 2,632,240,181
          Filing7
          Prisoner8                                                     37,249            $ 133,087,550
          Students (ages 16 to 22)                                     225,402            $ 524,742,260

                                                         Total      1,086,998           $ 3,612,406,232
         Source: TIGTA analysis of Tax Year 2011 tax returns.
When taxpayers file their returns after a fraudulent return has been filed, they
often experience significant burden and delays
For those individuals who are required to file a tax return, it is not until the legitimate individual
files a tax return, resulting in a duplicate filing under the same name and SSN, that many
individuals realize they are a victim of identity theft. When the identity thief files the fraudulent
tax return before the legitimate taxpayer, the IRS does not yet know that the victim’s identity
will be used more than once. Once the legitimate taxpayer files his or her tax return, this tax
return is identified as a duplicate tax return and the refund is held until the IRS can confirm the
taxpayer’s identity. For Tax Year 2011, we identified more than 174,000 SSNs that were used
multiple times, i.e., one or more potentially fraudulent tax returns were associated with the
multiple use of an SSN.9 We estimate that approximately $183 million in potentially fraudulent
tax refunds were paid to identity thieves who filed tax returns before the legitimate taxpayers
filed theirs.10 This is in addition to the $4 billion11 noted previously, which is related to taxpayers
who do not appear to have a filing requirement.


7
  This category contains tax returns filed with income claimed for which there is no supporting income documents
that would indicate the legitimate taxpayers did not have a tax return filing requirement.
8
  We plan to conduct a separate review to evaluate the IRS’s efforts to improve the detection and prevention of
prisoner tax fraud later this fiscal year.
9
  This estimate includes only those tax returns filed on tax accounts that contain an identity theft indicator added on
or before December 31, 2012.
10
   This estimate is based only on the duplicate use of the primary SSN when the tax refund was reversed.
11
   The $4 billion represents $3.6 billion in refunds for tax returns filed using an SSN and $385 million in refunds for
tax returns filed using an ITIN.
                                                                                                               Page 8
                         Detection Has Improved; However, Identity Theft
                            Continues to Result in Billions of Dollars in
                               Potentially Fraudulent Tax Refunds



Individual Taxpayer Identification Numbers Are Sometimes Used to
File Potentially Fraudulent Tax Returns
Our analysis identified 141,062 tax returns filed for Tax Year 2011 by individuals using an ITIN
that had characteristics of IRS-confirmed identity theft tax returns. These returns resulted in the
issuance of approximately $385 million in potentially fraudulent tax refunds. Although these tax
returns had the characteristics of IRS-confirmed identity theft cases involving the use of an ITIN,
some of the potentially fraudulent tax returns we identified could also be the result of
misreporting of income and withholding by the employer or an individual obtaining an ITIN for
the sole purpose of using the ITIN to file a fraudulent tax return.
There were 141,287 Taxpayer Identification Numbers used on the Forms W-2, Wage and Tax
Statement, associated with the 141,062 tax returns. ********************2***************
**********************************************2******************************
**************************************************2************************
***********************2****************************.
Any person required to file a tax return must include an identifying number, referred to as a
Taxpayer Identification Number. For the majority of filers, this is the individual’s SSN. The
IRS created the ITIN to provide a Taxpayer Identification Number to individuals who do not
have and are not eligible to obtain an SSN. IRS guidelines specify that an ITIN is to be used for
Federal income tax purposes only and is not valid for work. As with SSNs, ITINs are specific to
individuals and should be issued to and used by only one individual.
************************************2***************************************
****************************************2*********************. To identify the
potentially fraudulent tax returns, we matched the Taxpayer Identification Number under which
the income was reported on the tax return to the Forms W-2 the IRS receives from the Social
Security Administration. **************************2******************************
******************************************2*******************************
******************************************2**********************************
*****2**********************. Figure 5 identifies specific characteristics of the Taxpayer
Identification Numbers under which the income and withholding were reported on the tax returns
we identified.




                                                                                            Page 9
                              Detection Has Improved; However, Identity Theft
                                 Continues to Result in Billions of Dollars in
                                    Potentially Fraudulent Tax Refunds



            Figure 5: Characteristics of the Taxpayer Identification Numbers
                 Used to Report Income on the Undetected Tax Returns

                                                                Taxpayer Identification Numbers
                        Characteristic                               Used on Forms W-2

         Child (under age 14)                                                     5,760
         Citizens of U.S. Possessions                                               462
         Deceased Individual                                                      3,527
         Elderly Individual (age 70 and over)                                     2,494
         IRS-Issued Identification Number12                                     101,680
         Prisoner                                                                   109
         Student (ages 16 to 22)                                                 12,615
                                                 13
         Individuals Not in Above Categories                                     14,640

                                                      Total                     141,287
       Source: TIGTA analysis of Tax Year 2011 tax returns.

In a July 2012, TIGTA reported that the IRS has not established processes to identify and
deactivate ITINs.14 For example, the IRS regularly receives data from the Social Security
Administration15 identifying the SSNs of deceased individuals to enable the IRS to verify
identity, prevent fraud, and comply with the USA PATRIOT Act.16 However, the IRS has not
established a process to identify ITINs of deceased individuals or individuals who no longer have
a valid tax-related purpose so that those ITINs can be deactivated. The ITIN is intended for tax
purposes only and creates no inference regarding an alien individual’s right to be legally
employed in the United States or that individual’s immigration status, i.e., the ITIN does not
authorize a foreign individual to work or live in the United States. An ITIN remains valid
indefinitely, even if not used on a tax return or for other tax-related purposes.



12
   This category consisted primarily of ITINs, but there were 550 Internal Revenue Service Numbers.
13
   The Taxpayer Identification Numbers in this category did not have identifiable characteristics that would indicate
the taxpayer may not have a filing requirement.
14
   TIGTA, Ref. No. 2012-42-081, Substantial Changes Are Needed to the Individual Taxpayer Identification
Number Program to Detect Fraudulent Applications (Jul. 2012).
15
   The Social Security Administration maintains a Death Master File containing records of more than 65 million
deaths, giving information on each decedent such as name, SSN, date of birth, and date of death. The Death Master
File is one of the Government’s most effective tools against financial fraud.
16
   Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism
Act of 2001, Pub. L. 107-56, 115 Stat. 272. Also known as the USA PATRIOT Act.
                                                                                                           Page 10
                          Detection Has Improved; However, Identity Theft
                             Continues to Result in Billions of Dollars in
                                Potentially Fraudulent Tax Refunds



We recommended that the IRS develop a process to identify and deactivate ITINs assigned to
individuals who no longer have a tax filing requirement. In response, the IRS stated that ITINs
issued after January 1, 2013, will expire after five years. Individuals who still need an ITIN after
the five-year expiration will have to reapply. Furthermore, the IRS continues to explore options
for deactivating ITINs assigned to individuals prior to January 1, 2013, who no longer have a tax
filing requirement. Based on our analysis, we believe the IRS should not delay in its
development of such a process because ***************2***************************
************************2***********************. Implementing such a process will
assist the IRS in reducing the likelihood that the ITIN can be used to file a fraudulent tax return.
Figure 6 provides a breakdown relating to the assignment year of the ITINs used on the
potentially fraudulent tax returns we identified. It shows those ITINs assigned over five years
ago and those assigned within the last five years.
                Figure 6: Analysis of ITIN Assignment Year for ITINs
             Used to File Undetected Potentially Fraudulent Tax Returns

                ITIN Assignment Tax Year                Tax Returns         Refunds Issued

                ITINs More Than 5 Years Old                 84,821           $ 216,932,792

                 ITINs 5 Years Old or Less                  56,241           $ 167,605,923

                                         Total            141,062            $ 384,538,715

           Source: TIGTA analysis of Tax Year 2011 tax returns and the IRS’s Real-Time System.

Recommendation
Recommendation 1: To reduce the potential for tax filing fraud, the Commissioner, Wage
and Investment Division, should implement a process to deactivate ITINs assigned to individuals
prior to January 1, 2013, who no longer have a tax filing requirement.
       Management’s Response: IRS management agreed with this recommendation. An
       implementation team is addressing the deactivation process for ITINs issued prior to
       2013 and is developing an enterprisewide process to accomplish that objective.
       Office of Audit Comment: IRS management agreed with our recommendation, but
       did not agree to the related outcome measure. IRS management’s response assumes that
       employer noncompliance with reporting requirements may account for a significant
       portion of the tax returns we identified. However, as we detail in the report, each of the
       141,062 tax returns had the characteristics of IRS-confirmed identity theft cases
       involving the use of an ITIN. Furthermore, our analysis of the Employer Identification
       Numbers on the Forms W-2 associated with the potentially fraudulent tax returns found

                                                                                                 Page 11
                                Detection Has Improved; However, Identity Theft
                                   Continues to Result in Billions of Dollars in
                                      Potentially Fraudulent Tax Refunds



           that over 90 percent belonged to businesses that had submitted Forms W-2 for other
           individuals.
           IRS management indicated they will develop an enterprise-wide process to deactivate
           ITINs issued prior to January 1, 2013. Nonetheless, they note that such a process will not
           be in place until 2017. As noted in our report, we believe this delay will contribute to the
           continued loss of potentially $385 million annually until the process is in place.

Continued Expansion of Identity Theft Filters Can Increase Detection
of Fraudulent Tax Returns
The IRS uses characteristics of confirmed identity theft cases to build filters to identify other
fraudulent tax returns. The IRS’s success at identifying fraudulent tax returns and preventing the
issuance of fraudulent tax refunds continues to increase with the expansion of these filters. The
identity theft filters incorporate criteria based on characteristics of confirmed identity theft tax
returns, ***********************************2**********************************
******2*************. Below are key characteristics of the 1.2 million undetected potentially
fraudulent tax returns we identified.

Tax returns signed by a paid preparer
We identified that 357,235 (33 percent)17 of the 1.1 million potentially fraudulent tax returns
using an SSN were signed by a paid preparer. These 357,235 tax returns involved
107,161 preparers and had tax refund claims totaling approximately $1.2 billion. There
were 114,669 (81 percent) of the 141,062 potentially fraudulent tax returns using an ITIN that
were signed by a paid preparer. These 114,669 tax returns involved 19,655 preparers and had
tax refund claims totaling $308 million. Figure 7 shows paid preparers that filed multiple
potentially fraudulent tax returns.




17
     Percentage is based on the actual number of 1,086,998 tax returns.
                                                                                               Page 12
                                    Detection Has Improved; However, Identity Theft
                                       Continues to Result in Billions of Dollars in
                                          Potentially Fraudulent Tax Refunds



            Figure 7: Tax Return Preparers Filing Most Undetected Tax Returns

                                     Undetected Tax Returns Filed Using an SSN
                 Paid Preparer            Number of Tax Returns           Refunds Issued
                               18
                  Preparer A                        5,506                    $ 26,819,367
                  Preparer B                        1,747                    $ 12,043,332
                  Preparer C                        1,746                     $ 2,260,037
                  Preparer D                           881                    $ 1,987,204
                  Preparer E                           819                    $ 2,758,326

                                     Undetected Tax Returns Filed Using an ITIN

                 Paid Preparer            Number of Tax Returns           Refunds Issued
                   Preparer A                       1,590                    $ 4,044,810
                   Preparer F                          839                   $ 2,409,816
                   Preparer G                          766                   $ 5,142,053
                   Preparer H                          706                   $ 2,129,543
                   Preparer I                          388                        $ 930,565

                              Total                14,988                   $ 60,525,053
              Source: TIGTA analysis of Tax Year 2011 tax returns.

Authenticating taxpayers remains a challenge for the IRS
Although the IRS is working toward finding ways to determine which tax returns are legitimate,
it could do more to prevent identity thieves from electronically filing (e-filing) tax returns. Of
the 1.2 million potentially fraudulent undetected tax returns, more than 1.1 million (93 percent)
were e-filed. Before a tax return can be e-filed, the taxpayer must verify his or her identity with
the correct date of birth and either the prior year’s tax return Self-Select Personal Identification
Number (PIN) or Adjusted Gross Income. However, we have determined that this control can be
circumvented. If the taxpayer does not remember his or her information, he or she can go to
IRS.gov, the IRS’s public Internet website, to obtain an Electronic Filing PIN. An Electronic
Filing PIN is obtained by providing personal information that the IRS matches against data on
the prior year’s tax return filed by the taxpayer. Alternatively, a taxpayer can call the IRS and
follow automated prompts to receive an Electronic Filing PIN.


18
     This same preparer also filed 1,590 tax returns using ITINs.
                                                                                              Page 13
                              Detection Has Improved; However, Identity Theft
                                 Continues to Result in Billions of Dollars in
                                    Potentially Fraudulent Tax Refunds



For the 2013 Filing Season, the IRS has required the taxpayer to provide additional Personally
Identifiable Information, including requiring the taxpayer’s address. Nonetheless, it remains a
challenge for the IRS to authenticate taxpayers. For example, the IRS has not adopted industry
practices of shared secrets, such as security challenge questions, to authenticate taxpayers,
e.g., mother’s maiden name or the name of first pet.
TIGTA analysis of more than 900,00019 undetected e-filed tax returns identified that taxpayers
signed their tax return using the Self-Select PIN method for 508,210 (56 percent) of the returns.
This method is required for any taxpayer filing a tax return using an online software package.
An Electronic Filing PIN was provided for authentication for 150,683 (30 percent) of the
508,210 tax returns signed using the Self-Select PIN method.
The remaining 393,374 e-filed tax returns were prepared by a paid tax practitioner who chose
and entered a PIN on behalf of the taxpayer or had the taxpayer create a PIN themselves.
Taxpayers can authorize a practitioner (who is responsible for ensuring that the taxpayer is who
they say they are) to sign the return for them by completing Form 8879, IRS e-file Signature,
before the return is submitted to the IRS.

Analysis of addresses used on the undetected tax returns
Our analysis of undetected tax returns continues to identify commonalities in the addresses used
on the potentially fraudulent tax return. As previously mentioned, the IRS developed a filtering
tool that will use a clustering method which will include grouping tax returns based on address,
zip code, and/or bank routing number to which a tax refund will be issued. These clusters will
then be filtered through various business rules to identify potentially fraudulent tax returns.
However, this filtering tool was not in place when the Tax Year 2011 tax returns we analyzed
were processed. Figures 8, 9, and 10 provide examples of the commonalities we identified.




19
  We did not include more than 200,000 of the 1.1 million e-filed tax returns in this analysis because they were filed
using a backup processing system, and we did not obtain a data extract of this information.
                                                                                                            Page 14
                                Detection Has Improved; However, Identity Theft
                                   Continues to Result in Billions of Dollars in
                                      Potentially Fraudulent Tax Refunds



                     Figure 8: Top Five Countries in the Mailing Address
                                on Undetected Tax Returns20

                   Country            Number of Tax Returns                    Refunds Issued

                   Bulgaria                       701                              $ 490,735

                  Lithuania                       676                              $ 228,993

                    Ireland                       657                              $ 282,926

                    China                         443                              $ 240,724

                   Canada                         337                              $ 698,166
           Source: TIGTA analysis of Tax Year 2011 tax returns.

                        Figure 9: Top Five Cities in the Mailing Address
                                  on Undetected Tax Returns

                       City                     Tax Returns                      Refunds Issued
                                 Undetected Tax Returns Filed Using an SSN
            Miami, Florida                           37,661                       $ 147,386,612
            Chicago, Illinois                        22,872                         $ 70,635,832
            Detroit, Michigan                        19,528                         $ 70,367,655
            Atlanta, Georgia                         18,586                         $ 53,372,590
            Houston, Texas                           16,437                         $ 55,497,521
                                 Undetected Tax Returns Filed Using an ITIN
            Los Angeles, California                     4,513                        $ 9,204,059
            Las Vegas, Nevada                           3,226                       $ 10,025,227
            Houston, Texas                              3,157                        $ 7,456,065
            Chicago, Illinois                           2,991                        $ 7,285,481
            Phoenix, Arizona                            2,315                        $ 8,362,458
                                 Total             131,286                        $ 439,593,500
           Source: TIGTA analysis of Tax Year 2011 tax returns.




20
   Tax returns filed using an ITIN are not included in this chart as there were only six of the 141,000 cases that were
filed from another country. The top five countries presented are other than the United States.
                                                                                                              Page 15
                           Detection Has Improved; However, Identity Theft
                              Continues to Result in Billions of Dollars in
                                 Potentially Fraudulent Tax Refunds



          Figure 10: Top Five Addresses Used on Undetected Tax Returns

                    Address                              Tax Returns       Refunds Issued
                             Undetected Tax Returns Filed Using an SSN
   Address 1 in Kaunas, Lithuania                            655              $ 220,489
   Address 2 in Orlando, Florida                             580              $ 870,253
   Address 3 in Lakewood, Colorado                           355            $ 1,001,707
   Address 4 in Shanghai, China                              343              $ 156,533
   Address 5 in Orlando, Florida                             291              $ 466,409
                              Undetected Tax Returns Filed Using an ITIN
   Address 6 in Santa Ana, California                        240              $ 576,552
   Address 7 in Salinas, California                          201              $ 785,793
   Address 8 in Mountlake Terrace,
                                                             194              $ 554,866
   Washington
   Address 9 in Milwaukee, Wisconsin                         159              $ 858,981
   Address 10 in Sanford, North Carolina                     127              $ 787,358
                                        Total              3,145            $ 6,278,941
  Source: TIGTA analysis of Tax Year 2011 tax returns.

Addresses used on potentially fraudulent tax returns using an ITIN were also
used by more than 5,000 individuals to obtain an ITIN
We performed an additional analysis using the addresses shown on the undetected potentially
fraudulent tax returns filed with ITINs that we identified. TIGTA previously reported that many
individuals applying for ITINs using a Form W-7, Application for IRS Individual Taxpayer
Identification Number, are using the same addresses to submit questionable ITIN applications.
We matched the top five addresses used on the undetected potentially fraudulent tax returns we
identified (addresses listed in Figure 10) to information contained in the IRS’s Real-Time
System to determine how many ITINs were assigned to individuals using the same address as
listed on the potentially fraudulent tax returns. For example, for Address 8 in
Mountlake Terrace, Washington:
      194 individuals filed potentially fraudulent returns with refunds issued totaling $554,866
       listing this as their address on the tax return (see Figure 10).
      1,947 ITINs were assigned to individuals who listed this as their address on their ITIN
       application per information available in the IRS’s Real-Time System.


                                                                                          Page 16
                                Detection Has Improved; However, Identity Theft
                                   Continues to Result in Billions of Dollars in
                                      Potentially Fraudulent Tax Refunds



Figure 11 shows the number of ITINs assigned to individuals using the same addresses we
identified as being used on multiple undetected potentially fraudulent tax returns.
               Figure 11: ITIN Applications Assigned Using the Same Address
                As Addresses Used to File Potentially Fraudulent Tax Returns

                                                                         ITINs Assigned Using
                                        Address                            These Addresses
                    Address 6 in Santa Ana, California                               021

                    Address 7 in Salinas, California                                39

                    Address 8 in Mountlake Terrace, Washington                   1,947

                    Address 9 in Milwaukee, Wisconsin                            1,841

                    Address 10 in Sanford, North Carolina                        1,287

                                                                Total            5,114

                   Source: TIGTA analysis of Tax Year 2011 tax returns and the IRS’s Real-Time System.

We plan to evaluate the IRS’s success in using the clustering tool to group tax returns based on
address, zip code, and/or bank routing number to which a tax refund will be issued. This
evaluation will be part of our continued coverage of identity theft in Fiscal Year 2014 and our
analysis of Tax Year 2012 tax returns.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should continue to
analyze characteristics of fraudulent tax returns resulting from identity theft to refine and expand
identity theft filters used to detect and prevent the issuance of fraudulent tax refunds resulting
from identity theft. This should include using the characteristics of questionable ITIN
application data.
           Management’s Response: IRS management agreed with this recommendation.
           During the 2012 and 2013 Filing Seasons, the Taxpayer Protection Program identified
           opportunities for improvement to the filter processes and implemented changes that
           improved their performance and effectiveness. The IRS plans to continue to evaluate the
           feasibility and impact of changes to the Dependent Database filters and ITIN Real-Time
           System. The IRS will prepare a risk assessment that, in addition to determining the scope
           and costs of programming needed to automate the process, will address mitigating


21
     There were no ITINs assigned using this address on the ITIN application.
                                                                                                         Page 17
                                 Detection Has Improved; However, Identity Theft
                                    Continues to Result in Billions of Dollars in
                                       Potentially Fraudulent Tax Refunds



           controls that can be implemented in the event the requested programming changes are not
           funded.

Actions Still Have Not Been Taken to Prevent Multiple Tax Refunds
From Being Deposited to the Same Bank Account
The inability of the IRS to ensure the accuracy of direct deposit account information continues to
be a factor in the ease with which individuals can receive fraudulent tax refunds. Our analysis of
the 1.2 million undetected Tax Year 2011 tax returns found that 1 million (84 percent) of the tax
returns used direct deposit to obtain tax refunds totaling approximately $3.5 billion. As we
previously reported, direct deposit, which now includes debit cards,22 is often used by identity
thieves to obtain fraudulent tax refunds. ***********************2*********************
****************************************2************************************
****************************************2***********************************
*****************************************2********************************
*****************************************2*********************************
**************************2*******************. Each method of obtaining a debit
card requires a different level of verification in order to acquire a card.
**********************************2***************************************
**************2********. Individuals who request to have their tax refund deposited onto a
debit card enter a bank account number and bank routing number provided by the debit card
company on their tax return. *****************************2************************
*************2*************. In addition, each method of obtaining a debit card requires a
different level of verification in order to acquire a card. To open a bank account, an individual
generally must present at least one form of identification such as a driver’s license or other
picture identification.

A prior TIGTA report recommended that the IRS limit the number of tax refunds
sent to the same account
The problem we identified in our previous analysis of Tax Year 2010 tax returns is still evident;
multiple Tax Year 2011 tax refunds continue to be deposited into the same bank account(s).
Figure 12 shows the top direct deposit accounts used multiple times.




22
     These include prepaid debit cards as well as reloadable cards.
                                                                                          Page 18
                          Detection Has Improved; However, Identity Theft
                             Continues to Result in Billions of Dollars in
                                Potentially Fraudulent Tax Refunds



        Figure 12: Analysis of Multiple Deposits to the Same Bank Account

                Direct Deposits Per Bank Account                      Tax Refunds
                   (one bank account per row)                    Deposited to the Account
                            Undetected Tax Returns Filed Using an SSN
                                 446                                    $ 591,447
                                 429                                    $ 531,204
                                 401                                    $ 499,964
                                 275                                    $ 344,767
                                 249                                    $ 244,112
                             Undetected Tax Returns Filed Using an ITIN
                                 184                                    $ 833,670
                                 137                                    $ 628,672
                                 106                                    $ 310,532
                                  97                                    $ 243,119
                                  93                                    $ 377,978
          Source: TIGTA analysis of Tax Year 2011 tax returns.

Our July 2012 report included four recommendations addressing the need to improve controls
over direct deposit refunds. In its response to our report, the IRS stated that it is working with
financial institutions to reject direct deposits of refunds from being made into accounts that
belong to individuals who do not have the same name as shown on the tax return. The IRS has
not taken any action to limit the number of refunds as recommended by TIGTA. Moreover, the
IRS still has not developed a means to identify direct deposits of tax refunds to accounts
associated with a debit card and still cannot ensure that financial institutions are authenticating
the identity of individuals purchasing debit cards. Figure 13 details recommendations we made
in our prior report to ensure the accuracy of direct deposits and actions the IRS has taken to date
to address these recommendations.




                                                                                            Page 19
                              Detection Has Improved; However, Identity Theft
                                 Continues to Result in Billions of Dollars in
                                    Potentially Fraudulent Tax Refunds



            Figure 13: Report Recommendations and Corrective Actions
       the IRS Has Taken Related to Ensuring the Accuracy of Direct Deposits

  Recommendation                                Corrective Actions Taken to Date

Coordinate with                o   In January 2013, the IRS implemented a pilot program (Opt-In
responsible Federal                Program) with the Financial Management Service designed to allow
agencies and banking               financial institutions to reject direct deposit tax refunds based on
institutions to develop a          mismatches between the account name and the name on the tax
process to ensure that             return. Once the refund is identified by the institution, it is sent back
tax refunds issued via             to the Financial Management Service to be routed back to the IRS.
direct deposit are made
                               o   When the IRS receives the rejected refund, it will send a notice to the
only to an account in the
                                   taxpayer explaining that the tax refund is being researched by the IRS.
taxpayer’s name.
                                   As of June 29, 2013, there have been 18,247 refunds returned from
                                   financial institutions totaling approximately $60 million.
                               o   In July 2013, the program is planned to begin its second phase, in
                                   which financial institutions will be able to indicate to the IRS their
                                   reason for identifying the return as either identity theft or
                                   questionable/fraudulent.

Limit the number of tax        o   As of June 2013, the IRS is considering TIGTA’s recommendation. The
refunds issued via direct          IRS developed additional filters designed to identify and stop tax
deposit to the same bank           returns with similar direct deposit characteristics. These filters are
account or debit card              being used in the 2013 Filing Season.
account in an attempt to
reduce the potential for
fraud.

Identify and quantify          o   The IRS stated that financial institutions cannot currently distinguish
direct deposits of tax             between direct deposit account numbers for deposit accounts and
refunds to accounts                prepaid debit cards.
associated with a debit
                               o   As of December 13, 2012, the IRS believes that it is under the same
card as well as develop
                                   limitations as the financial institutions; thus, no further work has been
the ability to associate
                                   completed on this recommendation.
tax refunds deposited to
a debit card to a specific
tax account.

Ensure that financial          o   The IRS indicated that it does not have the authority to implement any
institutions and debit             restrictions or requirements on how financial institutions and debit card
card administration                companies authenticate the identity of debit card holders.
companies authenticate
                               o   As of December 13, 2012, the IRS has stated that it has initiated
the identity of individuals
                                   discussion on this issue with various groups.
purchasing a debit card.

Source: TIGTA analysis on status of prior TIGTA report recommendations.


                                                                                                       Page 20
                            Detection Has Improved; However, Identity Theft
                               Continues to Result in Billions of Dollars in
                                  Potentially Fraudulent Tax Refunds



As we previously reported, the IRS Return Integrity and Correspondence Services’ Integrity and
Verification Operation23 has implemented a program in which the IRS works with financial
institutions to obtain information on questionable tax refunds. The IRS refers to this program as
the External Leads Program. The External Leads Program receives leads regarding questionable
tax refunds identified by financial institutions, government and law enforcement agencies, State
agencies, etc. For Processing Year 2013, the IRS is partnering with 201 financial institutions to
identify and return questionable tax refunds. In Calendar Year 2012, the IRS recovered
210,003 fraudulent tax refunds totaling more than $779 million through this program. This
program relies on the banks to provide the IRS with much-needed information to identify
potentially fraudulent tax refunds. We are currently conducting an audit to assess the
effectiveness of the External Leads Program in recovering questionable tax refunds.




23
 The IRS Integrity and Verification Operation was formally known as the Accounts Management Taxpayer
Assurance Program. The Integrity and Verification Operation name change was effective January 13, 2013.
                                                                                                     Page 21
                            Detection Has Improved; However, Identity Theft
                               Continues to Result in Billions of Dollars in
                                  Potentially Fraudulent Tax Refunds



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has improved its programs
and procedures to identify and prevent fraudulent tax refunds resulting from identity theft. This
review focused on identity theft related to tax refunds, which generally occurs when an
individual uses another person’s name and SSN to file a fraudulent tax return in order to obtain a
fraudulent tax refund. To accomplish the objective, we:
I.      Assessed the adequacy of the IRS’s implementation of corrective actions in response to
        our prior audit report.1
        A. Identified approximately 1.1 million potential tax returns filed by identity thieves for
           Tax Year2 2011 based upon criteria used in our previous identity theft review. In
           addition, identified more than 141,000 Tax Year 2011 tax returns filed using an ITIN
           by potential identity thieves.
            1. Performed data analysis on Data Center Warehouse files and Strategic Data
               Services extracted data to identify potential identity theft tax returns filed for Tax
               Year 2011. We identified populations (over age, under age, deceased, etc.)
               vulnerable to identity theft who have filed for a refund for Tax Year 2011.
            2. Stratified identified populations by applicable fields such as income type, number
               of ITINs, multiple returns to one address, and multiple direct deposits into one
               account.
            3. Validated the reasonableness of our criteria by reviewing a judgmental sample of
               tax returns filed by taxpayers in each segment identified to determine if the tax
               returns appear to be fraudulent.
        B. Compared the Tax Year 2011 population of potential identity theft tax returns to the
           population identified during our previous identity theft review.
II.     Identified control breakdowns that continue to result in the issuance of fraudulent tax
        refunds resulting from identity theft that were identified in Step I.
        A. Using the characteristics of the tax returns identified in Step I, assessed the adequacy
           of the IRS’s implementation of corrective actions and whether inadequate


1
  TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From
Identity Theft (Jul. 2012).
2
  See Appendix V for a glossary of terms.
                                                                                                     Page 22
                         Detection Has Improved; However, Identity Theft
                            Continues to Result in Billions of Dollars in
                               Potentially Fraudulent Tax Refunds



          implementation continues to result in fraudulent tax refund issuance, e.g., lack of a
          process to use third-party information, multiple tax refunds continuing to be sent to
          same account/address.
       B. Obtained statistics on the identity theft filters for Processing Year 2012 and verified
          the accuracy of the statistics.
       C. Determined the number of deceased locks the IRS has placed on taxpayer accounts.
       D. Determined if we can identify the PIN method used to e-file the taxpayer’s tax return
          to assess whether the method used to obtain the PIN may be contributing to the ability
          to file fraudulent e-filed tax returns.
          1. Determined the requirements for requesting a Self-Select PIN via the IRS Internet
             site (IRS.gov) and by calling the IRS and identified any discrepancies in the type
             of information required to obtain a PIN.
          2. Evaluated the methods used to file with a Self-Select PIN in our population of
             identity theft returns in Step I.A.
III.   Assessed the status of the IRS’s proactive initiatives to identify and prevent fraudulent
       tax refunds resulting from identity theft.
       A. Determined the status of the IRS’s implementation of identity theft filters used to
          identify fraudulent tax returns at the time of tax return processing.
       B. Assessed the status of the IRS’s initiative to share information with local law
          enforcement.
          1. Interviewed IRS management to determine the specifics of the pilot program
             initiated in Florida to coordinate with law enforcement to assist in the
             investigation of identity theft. We obtained pertinent documents, including
             timelines for implementing the pilot and the IRS’s plans to expand the pilot or
             implement the program.
          2. Obtained key statistics relating to the pilot program, including the number of
             States participating and the number of related arrests resulting from the pilot.
       C. Reviewed the role of the Identity Theft Clearinghouse. We determined how the
          organization identifies characteristics of identity theft cases, uses those characteristics
          to help prevent identity theft, and coordinates with other functions of the IRS.
       D. Determined the status of IRS efforts to expand the locking of tax accounts, including
          those of deceased taxpayers and individuals without a tax filing requirement.




                                                                                             Page 23
                         Detection Has Improved; However, Identity Theft
                            Continues to Result in Billions of Dollars in
                               Potentially Fraudulent Tax Refunds



Data validation methodology
During this review, we relied on data extracted from the IRS’s Individual Returns Transaction
File for Processing Year 2012, the Individual Master File for Tax Year 2011, the National
Account Profile database, the Form W-2 File for Tax Year 2011, the Modernized Tax Return
Database, and the Real-Time System database located on the TIGTA Data Center Warehouse.
We also relied on data extracts from the IRS’s Individual Master File for Tax Year 2011 and an
extract from the IRS’s Information Returns Master File database for Tax Year 2011 that were
provided by the TIGTA Office of Investigations’ Strategic Data Services. Before relying on our
data, we ensured that each file contained the specific data elements we requested. In addition,
we selected random samples of each extract and verified that the data in the extracts were the
same as the data captured in the IRS’s Integrated Data Retrieval System. As a result of our
testing, we determined that the data used in our review were reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the internal controls prescribed by the
IRS’s Internal Revenue Manual sections that are used by the IRS Accounts Management and
Submission Processing functions to process identity theft tax returns. We evaluated those
internal controls by interviewing management and reviewing policies and procedures. We also
conducted tests of the IRS’s procedures to prevent identity theft tax returns from being
processed.




                                                                                         Page 24
                       Detection Has Improved; However, Identity Theft
                          Continues to Result in Billions of Dollars in
                             Potentially Fraudulent Tax Refunds



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Deann L. Baiza, Director
Sharla J. Robinson, Audit Manager
Jonathan W. Lloyd, Lead Auditor
J. Edmund Carr, Audit Evaluator
Karen C. Fulte, Senior Auditor




                                                                                     Page 25
                       Detection Has Improved; However, Identity Theft
                          Continues to Result in Billions of Dollars in
                             Potentially Fraudulent Tax Refunds



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation SE:CI
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Deputy Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Refund Crimes SE:CI:RC
Director, Return Integrity and Correspondence Services, Wage and Investment Division
SE:W:RICS
Director, Technology Operations and Investigative Services SE:CI:TOIS
Program Manager, Integrity and Verification Operations, Wage and Investment Division
SE:W:RICS
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                  Page 26
                            Detection Has Improved; However, Identity Theft
                               Continues to Result in Billions of Dollars in
                                  Potentially Fraudulent Tax Refunds



                                                                                          Appendix IV

                                  Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Cost Savings, Funds Put to Better Use – Potential; $376,648,1031 ($1,883,240,515 over five
    years) in potentially fraudulent tax refunds issued from tax returns filed with an ITIN2
    meeting the tax return characteristics of identity theft cases confirmed by the IRS
    (see page 9).

Methodology Used to Measure the Reported Benefit:
We obtained lists of identity theft cases confirmed by the IRS and reviewed these cases to
identify common characteristics. We determined that most of the confirmed identity theft cases
we reviewed did not have ******************2***********************************, to
support the income claimed on the tax return. We applied the characteristics of these cases to all
Tax Year 2011 tax returns filed and then filtered our analysis for those using an ITIN on the
IRS’s Individual Return Transaction File3 that were processed in Processing Year 2012. These
returns were filed with an ITIN instead of an SSN. We identified the most egregious cases of
potential identity theft, which are those that have ****************2*********************
**********************************2************************************.
Using the previously mentioned characteristics, we identified 141,062 tax returns filed using an
ITIN that appear to be the result of identity theft. Further analysis showed that the IRS had
issued $384,538,715 in tax refunds on these questionable tax returns. Based on the outcome
measure reported in another TIGTA audit report (Ref. No. 2013-40-120, Sept. 2013), we reduced
the number of tax returns and subsequent refunds issued for 2,812 tax returns that appear in our
population of 141,062 tax returns and in the other audit’s population. Therefore, for this



1
  The outcome measure was reduced from the $384,538,715 presented in the report to avoid taking an outcome
measure on the same taxpayers as those reported in TIGTA, Ref. No. 2013-40-120, Stolen and Falsely Obtained
Employer Identification Numbers Are Used to Report False Income and Withholding (Sept. 2013) (see Methodology
Used to Measure the Reported Benefit).
2
  See Appendix V for a glossary of terms.
3
  Analysis performed on the Individual Returns Transaction File used data as of September 26, 2012.
                                                                                                    Page 27
                            Detection Has Improved; However, Identity Theft
                               Continues to Result in Billions of Dollars in
                                  Potentially Fraudulent Tax Refunds



outcome measure, we are reporting 138,250 tax returns filed using an ITIN that appear to be the
result of identity theft, which resulted in the issuance of $376,648,103 in refunds.
Unless the IRS takes corrective action, we believe the IRS will continue to issue significant
fraudulent tax refunds resulting from identity theft each year. As such, we estimate that the IRS
will issue $1,883,240,515 in potentially fraudulent tax refunds as a result of identity theft over
the next five years ($376,648,103 x 5 = $1,883,240,515).

Type and Value of Outcome Measure:
   Taxpayer Privacy and Security – Potential; 138,2504 tax accounts filed with an ITIN were
    compromised as a result of weaknesses in the IRS’s controls to detect and prevent identity
    theft (see page 9).

Methodology Used to Measure the Reported Benefit:
Our analysis of Tax Year 2011 tax returns processed during Processing Year 2012 described
previously identified 141,062 potentially fraudulent tax returns that were improperly posted to an
ITIN tax account. Individuals have an expectation that their accounts with the IRS will be
secured and not used for fraudulent purposes. By processing the fraudulent tax refunds
associated with these tax returns, the IRS did not secure the accounts of 141,062 taxpayers.
Many of these individuals may now have to work with the IRS to provide information to prove
that their identities were stolen and reestablish the accuracy of their tax accounts.
Based upon the outcome measure reported in another TIGTA audit report,5 we reduced the
number of tax returns and subsequent refunds issued for 2,812 tax returns that appear in our
population of 141,062 tax returns and in the other audit’s population. As such, this outcome
measure includes the remainder of 138,250 tax returns.




4
  The amount was reduced from the 141,062 presented in the report to avoid reporting an outcome measure on the
same taxpayers as those reported in TIGTA, Ref. No. 2013-40-120, Stolen and Falsely Obtained Employer
Identification Numbers Are Used to Report False Income and Withholding (Sept. 2013) (see Methodology Used to
Measure the Reported Benefit).
5
  TIGTA, Ref. No. 2013-40-120, Stolen and Falsely Obtained Employer Identification Numbers Are Used to Report
False Income and Withholding (Sept. 2013).
                                                                                                     Page 28
                         Detection Has Improved; However, Identity Theft
                            Continues to Result in Billions of Dollars in
                               Potentially Fraudulent Tax Refunds



                                                                                       Appendix V

                                 Glossary of Terms

Term                     Definition

Calendar Year            The 12-consecutive-month period ending on December 31.
Data Center Warehouse    A collection of IRS databases containing various types of taxpayer account
                         information that is maintained by TIGTA for the purpose of analyzing data for
                         ongoing audits.
Federal Trade            The primary Federal agency responsible for receiving identity theft complaints.
Commission
Filing Season            The period from January through mid-April when most individual income tax
                         returns are filed.
Financial Management     The Financial Management Service is a bureau of the U.S. Department of the
Service                  Treasury providing central payment services to Federal Program Agencies,
                         operating the Federal Government’s collections and deposit systems, providing
                         Governmentwide accounting and reporting services, and managing the
                         collection of delinquent debt owed to the Government.
Form W-2 File            The Form W-2 File from the Data Center Warehouse is an extract of
                         Form W-2, Wage and Tax Statement, information filed by employers from the
                         Information Returns Master File database.
Individual Master File   An IRS database that maintains transactions or records of individual tax
                         accounts.
Individual Returns       An IRS database containing transcribed tax returns for individuals that includes
Transaction File         most forms and schedules.
Individual Taxpayer      The IRS created the ITIN to provide a Taxpayer Identification Number to
Identification Number    individuals who do not have and are not eligible to obtain an SSN.
Information Returns      An IRS database that contains third-party information documents for
Master File              taxpayers, such as Forms W-2 and Forms SSA-1099, Social Security Benefit
                         Statement.
Integrated Data          IRS computer system capable of retrieving or updating stored information. It
Retrieval System         works in conjunction with a taxpayer’s account records.


                                                                                                Page 29
                          Detection Has Improved; However, Identity Theft
                             Continues to Result in Billions of Dollars in
                                Potentially Fraudulent Tax Refunds



Term                      Definition

Internal Revenue          Provides procedural guidance for IRS operations.
Manual
Internal Revenue          An Internal Revenue Service Number is a temporarily assigned number used as
Service Number            an internal identifying number until a permanent Taxpayer Identification
                          Number is supplied.
Master File               The IRS database that stores various types of taxpayer account information.
                          This database includes individual, business, and employee plans and exempt
                          organizations data.
Modernized Tax Return     The Modernized Tax Return Database is the legal repository for original
Database                  e-filed returns received by the IRS through the Modernized e-File system.
National Account          A compilation of selected entity data from various Master Files that also
Profile Database          includes data from the Social Security Administration.
Processing Year           The calendar year in which the tax return or document is processed by the IRS.
Real-Time System          The Real-Time System is the IRS system that houses ITIN application
                          information.
Tax Year                  A 12-month accounting period for keeping records on income and expenses
                          used as the basis for calculating the annual taxes due. For most individual
                          taxpayers, the tax year is synonymous with the calendar year.
Taxpayer Identification   A Taxpayer Identification Number is a nine-digit number assigned to taxpayers
Number                    for identification purposes. Depending upon the nature of the taxpayer, it can
                          be an Employer Identification Number, an SSN, or an ITIN.




                                                                                                 Page 30
        Detection Has Improved; However, Identity Theft
           Continues to Result in Billions of Dollars in
              Potentially Fraudulent Tax Refunds



                                                   Appendix VI

Management’s Response to the Draft Report




                                                           Page 31
Detection Has Improved; However, Identity Theft
   Continues to Result in Billions of Dollars in
      Potentially Fraudulent Tax Refunds




                                                   Page 32
Detection Has Improved; However, Identity Theft
   Continues to Result in Billions of Dollars in
      Potentially Fraudulent Tax Refunds




                                                   Page 33
Detection Has Improved; However, Identity Theft
   Continues to Result in Billions of Dollars in
      Potentially Fraudulent Tax Refunds




                                                   Page 34
